TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2006



                                      September 19, 2006

                              Reference Number: 2006-20-179




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             Background

The Federal Information Security Management Act (FISMA)1 requires each Federal
Government agency to report annually to the Office of Management and Budget
(OMB) on the effectiveness of its security programs. In addition, the FISMA requires
that each agency shall have performed an annual independent evaluation of the
information security program and practices of that agency. In compliance with the
FISMA requirements, the Treasury Inspector General for Tax Administration (TIGTA)
performs the annual independent evaluation of the security program and practices of
the Internal Revenue Service.
The OMB provides information security performance measures by which each agency is
evaluated for the FISMA review. The OMB uses the information from the agencies and
independent evaluations to help assess agency-specific and Federal Government-wide
security performance, develop its annual security report to Congress, assist in
improving and maintaining adequate agency security performance, and assist in the
development of the E-Government Scorecard under the President’s Management
Agenda.
Attached is the TIGTA’s Fiscal Year 2006 FISMA report. The report was forwarded to
the Treasury Inspector General for consolidation into a report issued to the Department
of the Treasury’s Chief Information Officer.




1
    The FISMA is part of the E-Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002).
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 19, 2006


 MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE TREASURY INSPECTOR GENERAL

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Treasury Inspector General for Tax Administration –
                              Federal Information Security Management Act Report for
                              Fiscal Year 2006

 We are pleased to submit the Treasury Inspector General for Tax Administration’s (TIGTA)
 Federal Information Security Management Act (FISMA)1 report for Fiscal Year 2006.
 Attachment I presents our independent evaluation of the status of information technology
 security at the Internal Revenue Service (IRS). We based our evaluation on the Office of
 Management and Budget (OMB) reporting guidelines.
 During the 2006 evaluation period,2 we also conducted 14 audits to evaluate the adequacy of
 information security in the IRS. We considered results from these audits when making our
 assessment. Attachment II is a list of these specific audits.
 The IRS has made steady progress in complying with FISMA requirements since the enactment
 of the FISMA in 2002. During 2006, the IRS reassessed the security risks of each of its systems.
 We are now confident that the inventory of IRS systems is substantially complete and the risk
 categorizations are accurate. The IRS also made significant improvements in the security
 certification and accreditation process. A working group,3 with participation from all the IRS
 business units, continued its weekly meetings to plan and refine processes for FISMA
 compliance. The IRS also continued to work closely in seeking guidance and concurrence on
 FISMA issues with the TIGTA and the Department of the Treasury Chief Information Officer to



 1
   Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
 2
   The FISMA reporting period for the Department of the Treasury is July 2005 through June 2006.
 3
   IRS Security Program Management Office Council.
improve compliance with the National Institute of Standards and Technology (NIST)4 and
FISMA requirements.
To complete our review we evaluated a representative sample of 15 IRS information systems to
determine whether they had been certified and accredited and whether security controls had been
tested within the last year. We reviewed 10 IRS information systems to evaluate the adequacy of
the certification and accreditation process and conducted separate tests to evaluate processes for
Plans of Action and Milestones (POA&M), configuration management, incident reporting,
awareness training, training for employees with significant security responsibilities, and ensuring
privacy of sensitive information. Our evaluation of the IRS’ 2006 performance against specific
OMB security measures, as well as our audit work performed during the 2006 evaluation period,
show that the IRS still needs to do more to adequately secure its systems and data. Provided in
this document are security performance improvements as well as areas that require additional
attention.
Systems Inventory An accurate systems inventory is one of the cornerstones of an effective
security program. The IRS updates its inventory on an ongoing basis and reviews the system
inventory monthly and annually for accuracy and completeness. In this year’s FISMA
evaluation, the IRS reported on its total inventory of 264 systems. In addition, during the 2006
review period, the Office of Mission Assurance and Security Services, in coordination with each
of the business units, reevaluated the risk of all 264 systems. The risk categorization forms the
basis for selecting an appropriate set of security controls to protect the confidentiality, integrity,
and availability of systems and data. We are confident that the systems inventory is substantially
complete and the risk categorizations for IRS systems are accurate.
Certification and Accreditation OMB guidelines for minimum security controls in Federal
Government information systems require that all systems be certified and accredited every
3 years or when major system changes occur. In the IRS, the Chief, Mission Assurance and
Security Services, is the certifying authority for all systems. The Chief, Mission Assurance and
Security Services, must test5 the security controls in the information system and provide the
results to the business unit owners. Business unit owners must then evaluate the information and
determine whether to accredit the system, thereby giving it an authority to operate. By
accrediting the system, the business unit owner accepts responsibility for the security of the
system and is fully accountable for any adverse impacts if security breaches occur.
The IRS reported that 95.5 percent of it systems had current certifications and accreditations in
Fiscal Year 2006. From our review of a sample (15 systems), we reported 100 percent had
current certifications and accreditations. We attribute the difference to the limited number of
systems we reviewed in our sample.



4
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
5
  In testing the security controls, the certification agent determines the extent to which the security controls in the
information system are implemented correctly, operating as intended, and producing the desired outcome with
respect to meeting the security requirements of the information system.

                                                                                                                          2
In 2006, the IRS developed a repeatable, NIST-compliant process designed to ensure a thorough
assessment of system risk and security from which the system owner can make an appropriate
accreditation decision. The IRS used this approach to evaluate its systems inventory. However,
during our review, we noted problems with the execution of this process. For example, we found
that application-specific controls were sometimes erroneously described as common controls
and, as a result, they were not tested.
We also found examples of controls that were accepted without adequate testing. For example,
tests of the account management controls for a moderate risk system were based on interviews
only. Appropriate testing procedures should have included examinations of organizational
records, user accounts, and configuration settings. Additionally, the business units did not
always track weaknesses identified during the certification process for remediation.
Continuous Monitoring The NIST Special Publication 800-37, Guidelines for the Security
Certification and Accreditation of Federal Information Systems, states that a critical aspect of the
security certification and accreditation process is the post-accreditation period involving the
oversight and monitoring of the information system’s security controls. The NIST requires the
testing of an appropriate set of security controls every year throughout the system life cycle but
not necessarily to the same extent required for a certification.
In 2006, the IRS did not make progress in implementing annual testing requirements. From our
sample of 15 systems, we determined that the IRS met annual testing requirements on only 7 of
15 (46.6 percent) systems we reviewed because they were tested during the certification process.
On those systems that were not certified during the year, self-assessments were conducted but
were generally based on tests of the operating systems only. We recognize these tests are useful;
however, by not testing application-specific controls, business units cannot be confident that the
privacy of sensitive taxpayer information is adequately protected.
The Department of the Treasury’s Chief Information Officer recognizes that all bureaus need to
improve compliance with the NIST annual testing requirements and recently issued draft
guidance on the subject. The IRS agrees that this is an area for improvement and plans to have
an improved process in place in Fiscal Year 2007.
Tracking Corrective Actions All Federal Government agencies are required to use the
POA&M process to prioritize, track, and resolve security weaknesses. The IRS has developed,
implemented, and is currently managing a POA&M process; however, the process needs
improvement to ensure that all weaknesses from audit reports and vulnerability scans are tracked
in POA&Ms.
From 9 TIGTA security reports issued during the 2006 FISMA reporting period, we could locate
POA&Ms addressing only 11 of 41 (26.8 percent) recommendations and 11 of 47 (23.4 percent)
proposed corrective actions. Also, in September 2005, the TIGTA issued an audit report6 in
which we noted that problems identified during vulnerability scans and penetration tests were not
formally provided to the business units, and corrective actions were not documented in
POA&Ms.

6
 The Computer Security Incident Response Center Is Operating As Intended, Although Some Enhancements Can Be
Made (Reference Number 2005-20-143, dated September 2005).
                                                                                                          3
Security Configuration Policies The OMB requires that agencies have configuration guides in
place for software to ensure consistent implementation across the agency. During 2006, the IRS
provided configuration guides for all eight types of operating system, database, and router
software running on IRS systems.
The IRS provided test results that demonstrated implementation for configuration policies for
6 of the 8 software types on at least 81 percent - 95 percent of the systems running the software.
However, it could not provide documentation of testing done to demonstrate the extent to which
security configuration guides were implemented for the other two software products. These
software products, if improperly configured, could make the IRS’ network vulnerable to
disruptions of service and thefts of sensitive information by hackers, employees, and contractors.
Incident Reporting Procedures The IRS Computer Security Incident Response Center
(CSIRC) in the Mission Assurance and Security Services organization provides IRS-wide
assistance and guidance for incident handling. The CSIRC defines a security incident as
“. . . any adverse event whereby some aspect of computer security could be threatened.”
The loss or theft of an information technology asset, including laptop computers and other
portable devices, is a type of incident that could result in unauthorized access to systems and
information. The IRS’ incident reporting procedures require reporting this type of incident to an
employee’s first-line manager immediately upon detection, who should then notify the CSIRC
and the TIGTA.
For 2006, we believe the IRS has not complied with CSIRC incident reporting policies and
procedures. Employees’ managers did not follow procedures for reporting the loss or theft of
laptops and other portable devices to the IRS and the TIGTA. In a separate, ongoing audit,7 we
found the CSIRC and the TIGTA were not notified of incidents involving lost or stolen computer
devices (e.g., laptops, Blackberries).
We recognize that incidents regarding lost or stolen portable devices are not the only type of
incidents that require reporting to the CSIRC and the TIGTA. However, due to the significance
of this type of incident and the risk of loss and misuse of personal information that these
incidents pose, it appears the IRS is not in compliance with incident reporting policies and
procedures.
Awareness Training The NIST Special Publication 800-50, Building an Information
Technology Security Awareness and Training Program, states that an awareness training
program is crucial for all users since it is the vehicle for disseminating information that users
need to do their jobs. The IRS provided security awareness training to all of its employees
but did not ensure all of its contractors received security awareness training. The IRS records
showed that 998 contractors received security awareness training. Based on the
2,323 contractors reported by the IRS for 2006, we determined that 1,325 (57 percent) did
not receive security awareness training. To ensure that all contractors receive security
awareness training, further improvements are needed.



7
    Protection of Sensitive Data on Electronic Media (Audit Number 200620001, report due in November 2006).
                                                                                                              4
Training Employees With Key Security Responsibilities The OMB requires that all
employees with key security responsibilities be given security-related training at least annually.
The IRS has improved its performance in this area in 2006 and now has a process in place for
identifying employees with significant security responsibilities. The IRS has also implemented
the Electronic Learning Management System to centrally track specialized security training
provided. However, further improvements are needed to ensure that employees with significant
security responsibilities receive sufficient security training.
The IRS reported that 2,447 of 2,476 (99 percent) employees with significant security
responsibilities received specialized security training during the reporting period. Since the
OMB and NIST have not provided minimum training requirements for employees with key
security responsibilities, the IRS considered an employee trained if he or she received any
training during the reporting period. We determined, however, that only 1,712 (69 percent)
employees received 8 hours or more of training (an amount we arbitrarily selected) during the
entire reporting period. The Department of the Treasury has indicated it will provide more
specific training requirements for the 2007 reporting period.
Training employees with key security responsibilities requires more emphasis. We have
attributed several weaknesses in past audit reports to the lack of training provided to these
employees. Without sufficient training, these weaknesses will continue.
Privacy Requirements In March 2006, the TIGTA completed field work on an audit8 to
determine whether the Office of Privacy has effective controls and procedures to ensure IRS
computer systems and employees adhere to privacy regulations. We determined that the IRS did
not comply with Section 208 of the E-Government Act9 on privacy requirements. Specifically,
the IRS needs to take further actions to conduct evaluations for all systems and applications
which collect personal information and to enhance its processes to better monitor compliance
with privacy policy and procedures. Since we completed the fieldwork on this audit, the IRS has
made several improvements to better comply with privacy regulations by conducting privacy
impact assessments for most of its systems and applications and developing an agency-wide
privacy training program. Corrective actions are in process to complete assessments for the
remainder of its applications, provide job-specific privacy training, and improve continuous
monitoring capabilities.




8
  The Monitoring of Privacy Over Taxpayer Data Is Improving Although Enhancements Can Be Made to Ensure
Compliance with Privacy Requirements (Reference Number 2006-20-166, dated September 2006).
9
  E-Government Act of 2002, Pub. L. No. 107-347, Sec. 208 (2002).
                                                                                                          5
                                         Attachment I


Details of the Treasury Inspector General for Tax
  Administration Federal Information Security
            Management Act Analysis




                                                Page 6
                               Details of the Treasury Inspector General for Tax Administration Federal Information Security Mangement Actual Analysis
                                                        Section C: Inspector General Questions 1, 2, 3, 4, and 5.
                                                                              Agency Name:
                                                                             Question 1 and 2
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of
an agency or other organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of
systems reviewed in this evaluation for each classification below (a., b., and c.).
             To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
             1) Continue to use NIST Special Publication 800-26, or,
             2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

             Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency,
             therefore, self reporting by contractors does not meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service provider,
             may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the
representative subset of systems evaluated, identify the number of systems which have completed the following: have a current certification and accreditation , a
contingency plan tested within the past year, and security controls tested within the past year.
                                                                     Question 1                                                              Question 2
                                                  a.                     b.                    c.                       a.                          b.                   c.
                                            Agency Systems           Contractor         Total Number of         Number of systems         Number of systems          Number of
                                                                      Systems               Systems               certified and            for which security    systems for which
                                                                                                                   accredited             controls have been     contingency plans
                                                                                                                                         tested and evaluated     have been tested
                                                                                                                                             in the last year   in accordance with
                                                                                                                                                                     policy and
                                                                                                                                                                     guidance


                 FIPS 199 Risk Impact       Total    Number  Total   Number  Total    Number                     Total        Percent of  Total   Percent of  Total Percent of
Bureau Name              Level             Number Reviewed Number Reviewed Number Reviewed                      Number          Total    Number     Total    Number   Total
Internal Revenue   High                            4       2       0       0        4        2                          2       100.0%          0      0.0%        0    0.0%
                   Moderate                     180        9       6       1     186       10                          10       100.0%          5     50.0%        3   30.0%
                   Low                            73       3       1       0       74        3                          3       100.0%          2     66.7%        1   33.3%
                   Not Categorized                 0       0       0       0        0        0                          0          0.0%         0      0.0%        0    0.0%
                Sub-total                       257      14        7       1     264       15                          15       100.0%          7     46.7%        4   26.7%
Agency Totals       High                            4          2        0          0           4            2             2     100.0%          0       0.0%           0     0.0%
                   Moderate                      180          9         6          1        186            10            10     100.0%          5      50.0%           3    30.0%
                   Low                            73          3         1          0         74             3             3     100.0%          2      66.7%           1    33.3%
                   Not Categorized                 0          0         0          0          0             0             0       0.0%          0       0.0%           0     0.0%
                Total                            257         14         7          1        264            15          15       100.0%          7      46.7%           4    26.7%
                                                                                   Question 3
In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
                The agency performs oversight and evaluation to ensure information systems used or operated by a
                contractor of the agency or other organization on behalf of the agency meet the requirements of FISMA,
                OMB policy and NIST guidelines, national security policy, and agency policy. Self-reporting of NIST
                Special Publication 800-26 and/or NIST 800-53 requirements by a contractor or other organization is not
                sufficient, however, self-reporting by another Federal agency may be sufficient.
                Response Categories:                                                                                     - Sometimes, for example, approximately 51-70% of
      3.a.
                       - Rarely, for example, approximately 0-50% of the time                                           the time
                       - Sometimes, for example, approximately 51-70% of the time
                       - Frequently, for example, approximately 71-80% of the time
                       - Mostly, for example, approximately 81-95% of the time
                       - Almost Always, for example, approximately 96-100% of the time
                The agency has developed an inventory of major information systems (including major national security
                systems) operated by or under the control of such agency, including an identification of the interfaces
                between each such system and all other systems or networks, including those not operated by or under
                the control of the agency.
                Response Categories:
     3.b.1.           - Approximately 0-50% complete                                                                                - Approximately 96-100% complete
                      - Approximately 51-70% complete
                      - Approximately 71-80% complete
                      - Approximately 81-95% complete
                      - Approximately 96-100% complete
     3.b.2.     If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the systems Missing Agency Systems:
                that are missing from the inventory.
                                                                                                                       Missing Contractor Systems:
      3.c.      The OIG generally agrees with the CIO on the number of agency owned systems.                                                   Yes
                The OIG generally agrees with the CIO on the number of information systems
     3.d.                                                                                                                                             Yes
                used or operated by a contractor of the agency or other organization on behalf of the agency.
      3.e.      The agency inventory is maintained and updated at least annually.                                                                     Yes
      3.f.      The agency has completed system e-authentication risk assessments.                                                                    Yes
                                                                                  Question 4
Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone
(POA&M) process. Evaluate the degree to which the following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If
appropriate or necessary, include comments in the area provided below.
For items 4a.-4.f, the response categories are as follows:
       - Rarely, for example, approximately 0-50% of the time
       - Sometimes, for example, approximately 51-70% of the time
       - Frequently, for example, approximately 71-80% of the time
       - Mostly, for example, approximately 81-95% of the time
       - Almost Always, for example, approximately 96-100% of the time
                  The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with - Frequently, for example, approximately 71-80% of
       4.a.       information systems used or operated by the agency or by a contractor of the agency or other            the time
                  organization on behalf of the agency.
                  When an IT security weakness is identified, program officials (including CIOs, if they own or operate a  - Frequently, for example, approximately 71-80% of
       4.b.       system) develop, implement, and manage POA&Ms for their system(s).                                      the time
                Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their   - Almost Always, for example, approximately 96-100%
      4.c.      remediation progress.                                                                                          of the time
                CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                   - Almost Always, for example, approximately 96-100%
     4.d.
                                                                                                                               of the time
                OIG findings are incorporated into the POA&M process.                                                   - Frequently, for example, approximately 71-80% of
      4.e.
                                                                                                                       the time
                POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are - Almost Always, for example, approximately 96-100%
      4.f.      addressed in a timely manner and receive appropriate resources                                         of the time
Comments: Question 2.b. - The IRS reported 61 percent of its systems were tested and evaluated in 2006. The IRS considered systems that had been certified and accredited
within the reporting period as having been tested and evaluated. Using the same criteria we are reporting that 46.7 percent (7 of the 15 systems we reviewed) were tested and
evaluated. We attribute the difference to the limited number of systems we reviewed in our sample. We did note that the IRS completed self-assessments during the review
period for the remaining 8 systems; however, we are not recognizing self-assessments as a method of testing and evaluation. As we reported for FISMA 2005, self-assessment
performance levels for applications are often based on tests of the General Support Systems which are usually conducted by the office of the CIO. We recognize these tests are
useful. However, application-specific controls have not yet been selected and tested for each application as part of annual testing requirements, and business units have not
been adequately involved in the testing. The IRS expects to have annual testing procedures in place in 2007.
 In our 2005 FISMA assessment, we reported our concern that the IRS and State agencies do not use NIST guidelines, to monitor the security of Federal tax information provided
to State agencies. We did not follow up on this concern during this 2006 assessment; however, we have an audit planned for FY 2007 to further address this issue. Question
3.a. - In 2006, the IRS certified 4 of 7 (57.14 percent) of its contractor systems and performed self-assessments for the other 3 contractor systems. As explained in the comments
for Question 2.b. we do not recognize self-assessments as meeting the annual testing requirement. Therefore, we replied that the IRS provides oversight and evaluation of its
contractor systems only Sometimes (51-70 percent of the time). Question 4.a. - e. - The IRS has developed, implemented, and is managing an agency-wide POA&M process;
however, the process needs improvement to ensure that all weaknesses are tracked in the repository the IRS uses to generate POA&Ms.
 From 9 TIGTA security reports issued during the 2006 FISMA reporting period, we could locate only 11 of 41 (26.8 percent) recommendations and 11 of 47 (23.4 percent)
proposed corrective actions in the weakness repository. The repository also contained no weaknesses for 2 applications of a sample of 10 certified and accredited in 2006 even
though control weaknesses were identified during the certification Security Test & Evaluation.
We located a POA&M for one of the two systems, indicating that the POA&M was not generated from the weakness repository contrary to IRS POA&M procedures. In addition, in
September 2005, the TIGTA issued audit report 2005-20-143, titled, The Computer Security Incident Response Center Is Operating As Intended, Although Some Enhancements
Can Be Made, in which we reported that problems identified during vulnerability scans and penetration tests were not formally provided to the business owners, and corrective
actions were not documented in POA&Ms. If all weaknesses are not entered into the weakness repository, the IRS cannot ensure that POA&Ms are developed and corrective
actions are taken to address security weaknesses.
                                                                                    Question 5
OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation
process, including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004),
“Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance
for completing risk assessments and security plans .

                Assess the overall quality of the Department's certification and accreditation process.
                Response Categories:                                                                                        - Satisfactory
                     - Excellent        - Good        - Satisfactory        - Poor       - Failing
Comments: We reviewed a sample of 10 applications that were certified and accredited during 2006. The IRS made substantial improvements to the C&A process during the
2006 FISMA reporting period. They have implemented a repeatable, NIST-compliant process designed to ensure a thorough assessment of system risk and security from which
the system owner can make an appropriate accreditation decision. While we recognize and commend the IRS on this significant progress, the process needs further
improvement to support an assessment level exceeding satisfactory. As we reported in Question 2, the IRS has not implemented procedures to ensure the continuous monitoring
of security controls, a key requirement of the C&A process. Such procedures would require system owners to select a subset of controls for each system they own, to be tested
in the interim years when a system is not scheduled for certification. The selection of controls is a system owner decision and should consider risk as well as the degree to which
a control might degrade between certification cycles.

The IRS recognizes the need to improve compliance with continuous monitoring requirements and has committed to developing a process and guidelines to better implement this
control during 2007. In addition, our review of the System Security Plans (SSP) showed application-specific controls that were sometimes erroneously described as common
controls resulting in the controls not being tested. We also found examples of tested controls with "PASS" ratings that were not clearly supported. For example, some tests were
based on interviews only when appropriate testing procedures should have included examinations of organizational records, user accounts, and configuration settings.
Additionally, weaknesses identified during the certification process were not always tracked by the business units for remediation.
                                                       Section B: Inspector General. Question 6, 7, 8, and 9.
                                                                                Question 6
     Is there an agency wide security configuration policy?
6.a.                                                                                                                                   Yes
     Yes or No.
     Comments:
     Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy. Indicate
6.b. whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on the systems
     running the software.
                                                                                                     Approximate the extent of implementation of the security
                                                                                                     configuration policy on the systems running the software.
                                                                                                     Response choices include:
                                                                                                     - Rarely, or, on approximately 0-50% of the
                                                                                                       systems running this software
                                                                                                     - Sometimes, or on approximately 51-70% of
                     Product                                                                           the systems running this software
                                                                                                     - Frequently, or on approximately 71-80% of
                                                     Addressed in                                      the systems running this software
                                                  agencywide policy?       Do any agency systems run - Mostly, or on approximately 81-95% of the
                                                                                 this software?        systems running this software
                                                                                                     - Almost Always, or on approximately 96-100% of the
                                                         Yes, No,                                    systems running this software
                                                          or N/A.                  Yes or No.
                                                                                                                - Almost Always, or on approximately 96-100% of the
             Windows XP Professional
                                                           Yes                          Yes               systems running this software
                                                                                                                - Mostly, or on approximately 81-95% of the systems
             Windows NT
                                                           Yes                          Yes               running this software
             Windows 2000 Professional                     N/A                          No
                                                                                                                - Mostly, or on approximately 81-95% of the systems
             Windows 2000 Server
                                                           Yes                          Yes               running this software
                                                                                                                - Mostly, or on approximately 81-95% of the systems
             Windows 2003 Server
                                                           Yes                          Yes               running this software
                                                                                                                - Mostly, or on approximately 81-95% of the systems
             Solaris
                                                           Yes                          Yes               running this software
             HP-UX                                         N/A                          No
                                                                                                                - Rarely, or, on approximately 0-50% of the systems
             Linux
                                                           Yes                          Yes               running this software
                                                                                                                - Almost Always, or on approximately 96-100% of the
             Cisco Router IOS
                                                           Yes                          Yes               systems running this software
                                                                                                                - Rarely, or, on approximately 0-50% of the systems
             Oracle
                                                             Yes                         Yes              running this software
              Other. Specify:
Comments: Our assessment differs from IRS' assessment for systems running Linux and Oracle software. For each of these, IRS reported an implementation rate of,
"Mostly, or on approximately 81-95 percent of the systems running this software", while we rated the two as, "Rarely, or, on approximately 0-50 percent of the systems
running this software". Our ratings reflect that IRS could not provide documentation of testing done to support the extent to which the security configuration policy has
been implemented on the systems running Linux or Oracle.

                                                                               Question 7
Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.
Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.
        The agency follows documented policies and procedures for identifying and reporting incidents
 7.a.                                                                                                                                       No
        internally.
        The agency follows documented policies and procedures for external reporting to law enforcement
 7.b.                                                                                                                                       No
        authorities.
        The agency follows defined procedures for reporting to the United States Computer Emergency
 7.c.                                                                                                                                      Yes
        Readiness Team (US-CERT). http://www.us-cert.gov
Comments: Questions 7.a. & b. - The IRS has not followed policies and procedures for reporting incidents internally or to law enforcement authorities. The IRS
responded that they have followed incident reporting policies and procedures. Our response is based on a separate, on-going audit, in which we found that incidents
involving lost or stolen computer devices (e.g., laptops, blackberries) were not reported to the CSIRC or the TIGTA. Results are still being compiled and will be reported
in a separate report. We recognize that incidents regarding lost or stolen portable devices are not the only type of incident required to be reported to the CSIRC and the
TIGTA. However, due to the significance of this type of incident and the risk of loss and misuse of personal information that these incidents pose, it appears that the IRS
is not in compliance with incident reporting policies and procedures.
                                                                              Question 8
        Has the agency ensured security training and awareness of all employees, including contractors     - Sometimes, or approximately 51-70% of employees have
  8     and those employees with significant IT security responsibilities?                                sufficient training
Comments: We are supplementing this response with comments because a single response choice cannot be applied to the two separate performance measures
addressed in Question 8; namely, awareness training for all employees (including contractors) as well as specialized security training for employees with significant
security responsibilities. Awareness training - The IRS provided security awareness training to all of its employees, but did not ensure awareness training was provided to
all contractors. The IRS records showed that 998 contractors received awareness training. Based on the 2,323 contractors reported by the IRS for 2006, we determined
that 1,325 (57 percent) did not receive security awareness training. Further improvements are needed to ensure that all contractors receive awareness training.
Specialized security training - we disagree with the IRS' response that 99 percent (2,447 of 2,476) of employees with significant security responsibilities received
specialized security training. We determined only 1,712 (69 percent) of these employees received 8 hours or more of training (an amount we arbitrarily selected) during
the entire reporting period. We do not agree that training of less than 8 hours meets this security requirement.
                                                                                  Question 9
        Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness
  9     training, ethics training, or any other agency wide training?                                                                    Yes
        Yes or No.
                                                                           Attachment II

  Treasury Inspector General For Tax Administration
      Information Technology Security Reports
      Issued During the 2006 Evaluation Period

1. Security Controls for the Taxpayer Advocate Management Information System Could Be
   Improved (Reference Number 2005-20-100, dated July 2005)
2. Managers and System Administrators Need to Limit Employees’ Access to Computer Systems
   (Reference Number 2005-20-097, dated July 2005)
3. More Management Attention Is Needed to Protect Critical Assets
   (Reference Number 2005-20-108, dated July 2005)
4. Security Controls Were Not Adequately Considered in the Development and Integration
   Phases of Modernized Systems (Reference Number 2005-20-128, dated August 2005)
5. Monitoring Prime Contractor Access to Networks and Data Needs to Be Improved
   (Reference Number 2005-20-185, dated September 2005)
6. Increased Internal Revenue Service Oversight of State Agencies Is Needed to Ensure Federal
   Tax Information Is Protected (Reference Number 2005-20-184, dated September 2005)
7. Internal Penetration Test of the Internal Revenue Service’s Networked Computer Systems
   (Reference Number 2005-20-144, dated September 2005)
8. The Computer Security Incident Response Center Is Operating As Intended, Although Some
   Enhancements Can Be Made (Reference Number 2005-20-143, dated September 2005)
9. Contracting for Information Technology Goods and Service Generally Provided Intended
   Benefits; However, Maintenance Contracts Were Not Always Supported
   (Reference Number 2005-20-187, dated September 2005)
10. Federal Information Security Management Act Report for Fiscal Year 2005
    (Reference Number 2006-20-071, dated October 2005)
11. Progress Has Been Made in Using the Tivoli Software Suite, Although Enhancements Are
    Needed to Better Distribute Software Updates and Reconcile Computer Inventories
    (Reference Number 2006-20-021, dated December 2005)
12. Secure Configurations Are Initially Established on Employees Computers, but Enhancements
    Could Ensure Security Is Strengthened After Implementation
    (Reference Number 2006-20-031, dated February 2006)
13. The Internal Revenue Service Successfully Accounted for Employees and Restored Computer
    Operations After Hurricanes Katrina and Rita (Reference Number 2006-20-068, dated
    March 2006)
14. The Enterprise-Wide Implementation of Active Directory Needs Increased Oversight
    (Reference Number 2006-20-080,dated May 2006)
                                                                                       Page 7
